HHS/OIG, Audit - "Review of Retiree Drug Subsidy Plan Sponsor Blue Cross Blue Shield of Massachusetts, Inc., for Plan Year Ended December 31, 2006," (A-01-07-00603)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Retiree Drug Subsidy
Plan Sponsor Blue Cross Blue Shield of Massachusetts, Inc., for Plan Year Ended
December 31, 2006," (A-01-07-00603)
January 24, 2008
Complete Text of Report is available in PDF format (464 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Under the Retiree Drug Subsidy program, the Centers for
Medicare & Medicaid Services makes subsidy payments to employer and union
sponsors of qualified retiree prescription drug plans.  Blue Cross Blue Shield
of Massachusetts, Inc.s employment-based retiree health coverage met the
requirements to be considered a qualified retiree prescription drug plan.
However, Blue Cross Blue Shield did not establish sufficient controls to prevent
incorrect retiree drug costs from being reported under the program.  Using a
judgmental sample that contained retirees at high risk of having overstated
costs, we found that Blue Cross Blue Shield had overstated costs by $12,798 for
6 of the 50 retirees sampled.  In addition, Blue Cross Blue Shield did not
establish adequate administrative safeguards over retiree data.
We recommended
that Blue Cross Blue Shield (1) revise its 2006 plan year cost report at
reconciliation to eliminate the $12,798 in overstated costs, (2) work with its
vendor to ensure that all costs that its vendor submitted for plan year 2006
were incurred for qualifying covered retirees within both the retirees plan
coverage dates and the approved subsidy period, (3) establish procedures to
ensure that costs that its vendor submits in future years are incurred for
qualifying covered retirees within both the retirees plan coverage dates and
the approved subsidy period, and (4) follow the Centers for Medicare & Medicaid
Services procedures to ensure that only eligible employees have access to the
Retiree Drug Subsidy program secure Web site.  Blue Cross Blue Shield agreed
with our findings and recommendations.